       DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                           Office of Audit Services
                                                                           Region I
                                                                           John F. Kennedy Federal Building
                                                                           Boston, MA 02203
                                                                           (617) 565-2684

July 18, 2011

Report Number: A-01-11-00003

JudyAnn Bigby, M.D.
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Payments to Senior Solutions
Healthcare Management and Consulting, LLC for State Fiscal Years 2007 Through 2010. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-11-00003 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Dr. JudyAnn Bigby


Direct Reply to HHS Action Official:

Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
ROchiORA@cms.hhs.gov
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




REVIEW OF MEDICAID PAYMENTS
     TO SENIOR SOLUTIONS
  HEALTHCARE MANAGEMENT
    AND CONSULTING, LLC
 FOR STATE FISCAL YEARS 2007
        THROUGH 2010



                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-01-11-00003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency) is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution during the financial-eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment to the nursing home by the amount of the beneficiary’s contribution, the nursing home
could receive overpayments. Pursuant to Medicaid requirements, the nursing home must return
overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Senior Solutions Healthcare Management and Consulting, LLC (Senior Solutions) is a
Massachusetts provider with five Medicare and Medicaid certified nursing homes located in
Framingham, Hyde Park, Norwood, Milton, and Fall River, Massachusetts. The nursing homes
are Kathleen Daniel, Parkwell, Charlwell, Milton, and Kimwell.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Senior
Solutions in accordance with Federal and State requirements from July 2006 through June 2010.

SUMMARY OF FINDING

The State agency generally made Medicaid payments to Senior Solutions in accordance with
Federal and State requirements. However, the State agency did not always adjust its Medicaid
per diem payments to Senior Solutions by the amount of beneficiaries’ cost-of-care contributions
from resources, such as Social Security and pensions. As a result, the State agency’s Federal
claim was overstated by a total of $45,723 ($24,172 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $45,723 from Senior Solutions and refund the Federal
       share of $24,172 and

   •   continue its efforts to ensure Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

SENIOR SOLUTIONS COMMENTS

In its written comments to our draft report, Senior Solutions agreed with our finding. Senior
Solutions’ comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its written comments to our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS ............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          SENIOR SOLUTIONS COMMENTS…………………………………………4

          STATE AGENCY COMMENTS………………………………………………4

APPENDIXES

          APPENDIX A: MEDICAID OVERPAYMENTS TO SENIOR SOLUTIONS
            HEALTHCARE MANAGEMENT AND CONSULTING, LLC BY STATE
            FISCAL YEAR

          APPENDIX B: SENIOR SOLUTIONS HEALTHCARE MANAGEMENT
            AND CONSULTING, LLC COMMENTS

          APPENDIX C: STATE AGENCY COMMENTS




                                                                    iii
                                        INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency) is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the beneficiary’s
contribution to the cost of care during the financial eligibility process and enters this amount into
its computer system. The beneficiary’s cost-of-care contribution is remitted to the nursing home
each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Senior Solutions Healthcare Management and Consulting, LLC (Senior Solutions) is a
Massachusetts provider with five Medicare and Medicaid certified nursing homes located in
Framingham, Hyde Park, Norwood, Milton, and Fall River, Massachusetts. The nursing homes
are Kathleen Daniel, Parkwell, Charlwell, Milton, and Kimwell.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Senior
Solutions in accordance with Federal and State requirements from July 2006 through June 2010.

Scope

For the period July 1, 2006, through June 30, 2010, we reviewed Medicaid accounts that were at
risk for having overpayments. We limited our review of internal controls to obtaining an



                                                  1
understanding of Senior Solutions’ procedures for reviewing accounts and reporting
overpayments to the Medicaid program.

We performed fieldwork from January through March 2011 at Senior Solutions in Framingham,
Hyde Park, Norwood, Milton, and Fall River, Massachusetts; the State agency in Boston,
Massachusetts; and the CMS Regional Office in Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments,

   •   worked with Senior Solutions officials to identify credit balances in the accounting
       records that were potentially overpayments,

   •   reviewed Medicaid remittance advices and patient accounts to determine whether
       overpayments had occurred,

   •   determined the cause of overpayments, and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments to Senior Solutions in accordance with
Federal and State requirements. However, the State agency did not always adjust its Medicaid
per diem payments to Senior Solutions by the amount of beneficiaries’ cost-of-care contributions
from resources, such as Social Security and pensions. As a result, the State agency’s Federal
claim was overstated by a total of $45,723 ($24,172 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.

                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 150 overpayments to 5 Senior Solutions nursing homes on behalf of an average
of 3 Medicaid beneficiaries each month from July 2006 through June 2010 (see Appendix A).
Specifically, the State agency did not adjust its Medicaid payments to Senior Solutions by the
amount of beneficiaries’ cost-of-care contributions.


                           An Example of Medicaid Overpayment

   Mr. C was a nursing home patient during June 2009. Based on his other resources, the
   State agency calculated Mr. C’s cost-of-care contribution to be $750 a month. The State
   agency determined that the nursing home was entitled to a monthly payment of $5,500.
   Because of Mr. C’s $750 cost-of-care contribution, the State agency was responsible for
   only $4,750 of the $5,500 payment. However, the nursing home received a total of $6,250
   ($5,500 from the State agency and $750 from Mr. C). This error occurred because the
   State agency’s computer system did not adjust the payment amount by Mr. C’s cost-of-care
   contribution. The nursing home, therefore, received an overpayment of $750 ($6,250
   minus $5,500) for Mr. C’s care for the month of June.


AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of these overpayments, the State agency’s Federal claim for Medicaid payments made
to Senior Solutions from July 2006 through June 2010 was overstated by a total of $45,723
($24,172 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 150 incorrectly reimbursed Medicaid payments to clerical and billing errors.
Massachusetts officials said they have recently implemented a new computer system that will
reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $45,723 from Senior Solutions and refund the Federal
       share of $24,172 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.




                                               3
SENIOR SOLUTIONS COMMENTS

In its written comments to our draft report, Senior Solutions agreed with our finding. Senior
Solutions’ comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In its written comments to our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                                4
APPENDIXES
                APPENDIX A: MEDICAID OVERPAYMENTS TO SENIOR
           SOLUTIONS HEALTHCARE MANAGEMENT AND CONSULTING, LLC
                            BY STATE FISCAL YEAR


                             Average Number of
             Fiscal           Beneficiaries with     Number of         Total
             Year          Overpayments per Month   Overpayments   Overpayments

               2007                      5              58           $ 12,941

               2008                      4              49             14,662

               2009                      4              42             17,244

               2010                      ≤1              1                876

            TOTAL                        31             150            $45,723




1
    Result of averaging round numbers.
APPENDIX B: SENIOR SOLUTIONS HEALTHCARE MANAGEMENT COMMENTS 





                              SENIOR. SOLUTIONS 

                               Healthcare Management and Consulting, LLC




April 21, 2011

Michael J Armstrong
Regional Inspector General for Audit Services
Department of Health & Human Services
Office of Inspector General
Office of Audit Services
Region I
John F. Kennedy Federal Building
Boston, MA 02203

RE: Report Number: A-O J-1 1-00003

Dear Mr. Armstrong,

I have received and reviewed the draft report entitled Review 0/ Medicaid Payments to Senior Solutions
Healthcare Management/or State Fiscal Years 2007 through 20 I O. I am in agreement with the total
overpayment of $45,723 for our 5 facilities noted in the report.

During the audit there were 3 classifications of issues which resulted in the overpayments.
         1) Bed hold days paid at full MMQ rate instead of reduced bed hold rate.
         2) Patient paid amounts collected for resident while on a Medicare Paft A stay.
         3) Medicare Part B coinsurance overpaid during the transition from total coinsurance payment
             indicated from the Medicare remittance advice to line item coinsurance payments based on
             individual services provided.

 As I discussed with your auditor there were state processing issues that caused these overpayments and
 additional state barriers we encountered in attempting to return them.

 I appreciate your assistance in helping us to return these older overpayments to the state. I feel that with the
 state implementation of the new MMIS system in May of2009 that many orthe processing issues have
 been resolved.

 If you have any questions or need additional information please feel fcee to contact me at 978-869-5057.




~+ 4~l
Uennifer G Cook
 VP of Business Oftice Services
 Senior Solutions Healthcare Management
                           'l\:PPENDtX~ e: ~S'PATE        AGENCY'COMMENTS

      ~\                          The Commonwea lth ofMassachusetts
                              Executive Q[fice of Health andHLLman Services
                                             OJfice ofMedicaid
                                           One Ashburton Place
                                            Boston, MA 02108
 DEVAL L, PATRICK                                                                                     JUDYA.'JN BlGBY, M.D.
     Governor                                                                                               Secret.my

TIMOTHY P. MURRAY                                                                                   TERENCE G. DOUGHERTY
Lieutenant Governor                                                                                      Medicaid Director


             June 27, 201 1

             Michael J. Armstrong
             Regional Inspector General, Audit Services
             HHS/OIG/OAS
             Region I
             JFK Federal Building
             Boston, MA02203

             RE: Audit Report No: A-01-11-00003

            Dear Mr. Armstrong ,

             Thank you for the opportunity to review and comment on Draft Audit Report No. : A-01-11- 00003
             Review of Medicaid Payments to Senior Solutions Healthcare Management and Consulting, LLC for
             State Fiscal Years 2007 - 2010.

             Our responses to the report's specific recommendations are as follows :
             Recommendation:

            1) Collect overpayments totaling $ 45,723 from Senior Solutions and refund $ 24,172 Federal
            share of these payments to CMS on the next quarterly CMS-64.

            Response: We are in agreement with this finding and will follow the procedures described in state
            Medicaid regulations at 130 CMR 450.237 to collect the overpayments from the provider. Under 130
            CMR 450.237, the provider has a due process right to contest the overpayment, including the right to
            request an adjudicatory hearing and judicial review. We will need the OIGs work papers identifying the
            specific claims in order to undertake collection of the overpayments and to defend any challenge to
            collection by the provider. If the provider does not contest the overpayment collection or does not prevail
            in contesting this overpayment, we will work with EOHHS' Federal Revenue Unit to return the Federal
            share on the appropriate CMS-64.

            Recommendation:

            2) 	 Continue agency efforts to ensure that Medicaid overpayments to nursing homes are
                 identified, collected and refunded.

            Response: We are in agreement with this finding and will ensure that periodic reviews and audits are
            conducted to identify, collect and refund overpayments.
